         Office of Inspector General




November 9, 2006

ANTHONY M. PAJUNAS
VICE PRESIDENT, NETWORK OPERATIONS

SYLVESTER BLACK
VICE PRESIDENT, WESTERN AREA

DOUGLAS H. MORROW
MANAGER, HAWKEYE DISTRICT

CLARION E. FELCHLE
MANAGER, DAKOTAS DISTRICT

SUBJECT:      Audit Report – Sioux City, Iowa, Processing and Distribution Facility
              Consolidation (Report Number EN-AR-07-001)

This report presents the results of our audit of the predecisional consolidation proposal
for the Sioux City, Iowa, Processing and Distribution Facility (Project Number
06XG036EN000). Members of Congress and U.S. Postal Service management
requested this audit, which is the third in a series of audits of Area Mail Processing
(AMP) consolidations.

The Postal Service provided adequate support for its analyses of workhours,
transportation, and facility costs in the AMP proposal, and our additional analyses
provided confirming evidence for the consolidation. Management generally complied
with AMP guidance and maintained supporting documentation. However, we identified
some inconsistencies in AMP proposal data, and inaccurate information may have been
shared with stakeholders. We are making four recommendations in this report.

Management agreed with our recommendations and has initiatives in progress,
completed, or planned addressing the issues in this report. Management’s comments
and our evaluation of these comments are included in the report.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Tammy L.
Whitcomb, Director, Evolutionary Network Development, or me at (703) 248-2100.




Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: William P. Galligan
    David E. Williams
    Steven R. Phelps
Sioux City, Iowa, Processing and                                  EN-AR-07-001
 Distribution Facility Consolidation



                                       TABLE OF CONTENTS

 Executive Summary                                                     i

 Part I

 Introduction                                                          1

     Background                                                        1
     Objectives, Scope, and Methodology                                2
     Prior Audit Coverage                                              4

 Part II

 Audit Results                                                         5

     Data Supports the Consolidation                                   5

     Potential Risks of Consolidation                                  9

     Compliance with Area Mail Processing Guidance                   10
          Postal Service Actions                                     14
     Recommendations                                                 14
     Managements’ Comments                                           14
     Evaluation of Management’s Comments                             15

 Other Matters

 Appendix A. Map of Affected ZIP Codes                                16

 Appendix B. Prior Audit Coverage                                    17

 Appendix C. Plant Performance for Fiscal Year 2005                   19
             Percentage Achievement for Group Seven Plants

 Appendix C. continued – Plant Performance for Fiscal Year 2005      20
                         Percentage Achievement for Group
                         Five Plants

 Appendix D. Management’s Comments                                   21
Sioux City, Iowa, Processing and                                                                           EN-AR-07-001
 Distribution Facility Consolidation



                                         EXECUTIVE SUMMARY
 Introduction                        At the request of members of Congress and U.S. Postal
                                     Service management, the U.S. Postal Service Office of
                                     Inspector General (OIG) reviewed the Sioux City, Iowa Area
                                     Mail Processing (AMP) predecisional proposal. The
                                     proposal involved consolidation of outgoing1 and partial
                                     incoming2 mail processing operations from the Sioux City,
                                     Iowa, Processing and Distribution Facility (Sioux City P&DF)
                                     into the Sioux Falls, South Dakota, Processing and
                                     Distribution Center (Sioux Falls P&DC) and Sioux City,
                                     Iowa, Main Post Office (Sioux City MPO). Management
                                     projected that the consolidation would save approximately
                                     $873,000 during the first year. Our objective was to assess
                                     the justification for and impact of the proposed
                                     consolidation.

 Results in Brief                    The Postal Service provided adequate support for its
                                     analyses of workhours, transportation, and facility costs in
                                     the AMP proposal, and our additional analyses provided
                                     confirming evidence for the consolidation. The Postal
                                     Service determined that approximately 5,800 mail
                                     processing workhours could be eliminated if operations
                                     were transferred from the Sioux City P&DF to the Sioux
                                     Falls P&DC and Sioux City MPO.

                                     When we reviewed performance data for the two plants, we
                                     found excess mail processing capacity. The AMP proposal
                                     showed that the plants could eliminate one Advanced Facer
                                     Canceller System through this consolidation, and our
                                     analysis confirmed that the outgoing mail volume could be
                                     processed using fewer workhours and less equipment.

                                     The consolidation is projected to improve productivity and
                                     service, but we identified some potential risks. For
                                     example:

                                        •   The window of time available for processing outgoing
                                            mail is tight and could be further stressed by late-
                                            arriving mail from Sioux City.

1
  Outgoing mail is sorted within a mail processing facility and dispatched to another facility for additional processing
or delivery.
2
  Incoming mail is received by a postal facility, usually for distribution and delivery within the delivery area of the
receiving facility.


                                                               i
Sioux City, Iowa, Processing and                                                                     EN-AR-07-001
 Distribution Facility Consolidation



                                       •   The 24-hour clock indicators3 for Sioux Falls are
                                           currently below target.

                                       •   The 95-mile distance between the plants increases the
                                           consolidation risk.

                                       •   The loss of six docks in Sioux City because of the
                                           facility closure could affect transportation.

                                       •   The transition may require employees to be trained to
                                           perform new operations.

                                   Management should be attentive to these issues as they
                                   implement the consolidation and adjust plans as needed to
                                   minimize mail processing and delivery delays.

                                   Management generally complied with AMP guidance4 and
                                   maintained supporting documentation. However, we found
                                   some discrepancies with the AMP proposal and supporting
                                   documentation.

                                       •   Two highway contract routes were missing from the
                                           transportation analysis.

                                       •   Because the AMP proposal did not include the
                                           elimination of six custodian positions, it
                                           underestimated the impact on craft employees.

                                       •   Five of the service standard5 upgrades listed in the
                                           Sioux City AMP proposal were contingent on the
                                           approval of a separate AMP proposal.

                                       •   The AMP proposal was not consistent with data
                                           provided to support relocation of equipment, and
                                           facility savings calculations were slightly overstated.

                                       •   Estimated employee relocation costs could not be
                                           validated.
3
  The 24-hour clock indicators show how key operations affect each other and may influence service. Each indicator
is a key link in providing service to downstream facilities and customers. A Postal Service analysis has shown that
some sites failing to meet the indicators can still meet service goals.
4
  Handbook PO-408, Area Mail Processing Guidelines, provides a framework for consolidating operations in the mail
processing network. This national policy was issued by Postal Service Headquarters.
5
  Service standards are the Postal Service’s expectation that a piece of mail will be delivered to its intended
destination within a prescribed number of days, after proper deposit by the customer.


                                                           ii
Sioux City, Iowa, Processing and                                                         EN-AR-07-001
 Distribution Facility Consolidation




                                       •   The AMP proposal gave conflicting information on
                                           whether the consolidation would result in a facility
                                           closure.

                                 Because of these discrepancies, the cost savings and
                                 service impacts projected in the AMP may be inaccurate. In
                                 addition, the Postal Service may have shared inaccurate
                                 information with stakeholders.

                                 Several factors contributed to potential inaccuracies in the
                                 AMP data shared with stakeholders. First, the AMP policy
                                 did not contain detailed guidance for completing some
                                 worksheets. For example, we could not validate projected
                                 employee relocation expenses because the Postal Service
                                 did not have a methodology for completing the worksheet.
                                 Conflicting information in the AMP proposal on whether the
                                 consolidation would result in closing a facility was due to
                                 management indecision about which facility would be
                                 closed. Lastly, although the Handbook PO-408 required
                                 detailed reviews of the proposal by various management
                                 levels, the reviews did not identify these inconsistencies.

                                 The Postal Service needs to produce accurate AMP data
                                 and follow AMP processes so that the decisions made by
                                 executives are supported and stakeholders can have
                                 confidence that decisions are appropriate. Providing
                                 inaccurate information to external stakeholders could
                                 negatively affect public perception of the AMP process, and
                                 reduce needed support for the Postal Service’s efforts to
                                 consolidate the processing network.

 Postal Service Actions          During our review, management was revising the Handbook
                                 PO-408. They expect to complete an initial draft in early
                                 2007. Local management also began revising the AMP
                                 proposal as we informed them of our concerns during the
                                 audit.

 Summary of                      We recommend that management complete revisions to the
 Recommendations                 Sioux City AMP to accurately document impacts on
                                 employees, equipment, transportation, facilities, and
                                 service, and submit the revised proposal to Postal Service
                                 Headquarters. Additionally, we recommend that
                                 management communicate updated information on the


                                                        iii
Sioux City, Iowa, Processing and                                                   EN-AR-07-001
 Distribution Facility Consolidation



                                 Sioux City AMP proposal to stakeholders. Finally, we
                                 recommend that management provide detailed instructions
                                 for documenting facility information and estimating
                                 employee relocation expenses.

 Summary of                      Management agreed with the findings and
 Management’s                    recommendations in this report. Management has revised
 Comments                        the Sioux City feasibility study to include updated
                                 information identified by the OIG and submitted the revised
                                 feasibility study to Postal Service Headquarters on
                                 November 3, 2006. Management provided additional
                                 comments on issues that the Postal Service feels are
                                 significant and require clarification. Management’s
                                 comments, in their entirety, are included in Appendix D.

 Overall Evaluation of           Management’s actions taken or planned are responsive to
 Management’s                    the recommendations and should correct the issues
 Comments                        identified in the findings.




                                                   iv
Sioux City, Iowa, Processing and                                                                                           EN-AR-07-001
 Distribution Facility Consolidation


                                                           INTRODUCTION
   Background                                          The U.S. Postal Service’s mail processing network is one
                                                       of the largest in the world, with over 179,000 employees,
                                                       675 mail processing facilities, 16,750 highway network
                                                       routes, 214,000 vehicles, and operating costs of
                                                       $25 billion annually. The Postal Service has recognized
                                                       the need for a comprehensive redesign of its processing
                                                       and transportation network. The Postal Service’s
                                                       Strategic Transformation Plan: 2006-2010 described this
                                                       initiative as Evolutionary Network Development (END).
                                                       The goal of END is to create a flexible logistics network
                                                       that reduces costs, increases operational effectiveness,
                                                       and improves consistency of service.

                                                       This realignment of the Postal Service’s domestic network
                                                       is being conducted in response to declining First-Class
                                                       Mail® volume, increasing competition with traditional mail
                                                       products from the private sector, increasing automation
                                                       and mail processing by mailers, and shifting population
                                                       demographics. Despite a recent increase in mail volume,
                                                       the aggregate volume of First-Class Mail declined by
                                                       5 percent from fiscal years (FY) 2001 to 2005. In
                                                       addition, the Postal Service projects that First-Class Mail
                                                       volume will continue to decline. Chart 1 shows these
                                                       trends.

                                                           Chart 1: First-Class Actual (FYs 1999-2005) and
                                                                          Projected (FYs 2006-2008)


                                           104.00


                                           103.00


                                           102.00
                       Volume (billions)




                                           101.00


                                           100.00


                                            99.00


                                            98.00


                                            97.00


                                            96.00


                                            95.00
                                                    1999     2000     2001       2002       2003      2004   2005   2006     2007   2008

                                                                                        Fiscal Year




                                                                             1
Sioux City, Iowa, Processing and                                                                           EN-AR-07-001
 Distribution Facility Consolidation



                                         The Postal Service uses Area Mail Processing (AMP)
                                         policy to consolidate mail processing functions, eliminate
                                         excess capacity, increase efficiency, and make better use
                                         of resources. The Postal Service defines AMP as the
                                         consolidation of all originating and/or destinating
                                         distribution operations from one or more post offices into
                                         another automated or mechanized facility to improve
                                         operational efficiency and/or service.

                                         The Sioux City Processing and Distribution Facility
                                         (P&DF), the Sioux Falls Processing and Distribution
                                         Center (P&DC), and the Sioux City Main Post Office
                                         (MPO) are located in the Western Area. Postal Service
                                         management proposes to consolidate the Sioux City, Iowa,
                                         P&DF’s outgoing6 and partial incoming7 mail processing
                                         into the Sioux Falls, South Dakota, P&DC and the Sioux
                                         City, Iowa, MPO.

                                         The AMP proposal affected outgoing mail for ZIP Codes
                                         510-513 and incoming mail for ZIP Codes 512-513. This
                                         mail is currently processed at the Sioux City P&DF. The
                                         AMP proposal involves transferring the processing of this
                                         mail to the Sioux Falls P&DC. The remaining incoming
                                         mail processing currently performed at the Sioux City
                                         P&DF would move to the Sioux City MPO. (See Appendix
                                         A for a map of the affected ZIP Codes.) Management
                                         projected that consolidating mail processing operations
                                         from the Sioux City P&DF to Sioux Falls P&DC and Sioux
                                         City MPO would save nearly $873,000 during the first
                                         year. These savings are primarily from labor cost
                                         reductions ($592,347) and vacating the P&DF ($499,478),
                                         which are estimated at slightly over $975,000 annually.
                                         According to the proposal, transportation costs are
                                         expected to increase by about $100,000, service to most
                                         customers is projected to remain the same, and some
                                         overnight service standards may improve.

   Objective, Scope, and                 At the request of members of Congress and Postal Service
   Methodology                           management, we reviewed the predecisional AMP
                                         proposal to consolidate the Sioux City P&DF’s outgoing

6
  Outgoing mail is sorted within a mail processing facility and dispatched to another facility for additional processing
or delivery.
7
  Incoming mail is received by a postal facility, usually for distribution and delivery within the delivery area of the
receiving facility.


                                                            2
Sioux City, Iowa, Processing and                                                           EN-AR-07-001
 Distribution Facility Consolidation


                                         and partial incoming mail processing into the Sioux Falls
                                         P&DC and the Sioux City MPO.

                                         Our objective was to assess the justification for and impact
                                         of the Sioux City AMP proposal. We reviewed applicable
                                         network change guidelines, including Handbook PO-408,
                                         Area Mail Processing (AMP) Guidelines, and the Area Mail
                                         Processing (AMP) Communications Plan. We performed
                                         trend and cost analyses of mail volume, workhours,
                                         transportation, and productivity for each facility and
                                         conducted other analytical procedures to determine the
                                         potential impacts of the consolidation.

                                         We relied on Postal Service data systems, including the
                                         Breakthrough Productivity Initiative (BPI) website, the
                                         Management Operating Data System (MODS), the Web
                                         Enterprise Information System, and the Enterprise Data
                                         Warehouse (EDW) to analyze mail volumes, service
                                         performance, service indicators, and workhours.8 We also
                                         used information from the Transportation Information
                                         Management Evaluation System and the Transportation
                                         Contract Support System (TCSS) to review, verify, and
                                         validate transportation data; the Web Complement
                                         Information System to review employee complement
                                         issues; and the Service Standards Directory (SSD) to
                                         review service implications of the AMP.

                                         We verified key AMP data against Postal Service records
                                         and reports, including planned workhour reductions,
                                         transportation costs, numbers and types of employee
                                         positions affected, and projected service implications to
                                         customers. Because of time constraints, we did not verify
                                         all the data used to support the AMP proposal, but we
                                         focused on areas that were most likely to result in cost
                                         savings or significantly affect key stakeholders. We also
                                         checked the accuracy of data by confirming our analyses
                                         and results with managers. Our review focused primarily
                                         on predecisional data approved by district and area
                                         management. Completing the consolidation may result in
                                         differences from initial projections for workhour reductions,
                                         service standards, transportation costs, and other
                                         projected costs.


8
    In order to be consistent with data in the AMP proposal, we focused on FY 2005 data.


                                                           3
Sioux City, Iowa, Processing and                                                    EN-AR-07-001
 Distribution Facility Consolidation


                                       We conducted this audit from June through October 2006
                                       in accordance with generally accepted government
                                       auditing standards and included such tests of internal
                                       controls as we considered necessary under the
                                       circumstances. We discussed our observations and
                                       conclusions with management officials and included their
                                       comments where appropriate.

   Prior Audit Coverage                We issued five prior reports: one on the Handbook PO-
                                       408, Area Mail Processing Guidelines; two on the
                                       efficiency of mail processing operations, including our
                                       assessment of pending AMPs at the Main Post Office in
                                       Mansfield, Ohio, and at the Canton, Ohio, P&DC; and two
                                       on the justification and impact of AMP consolidations at
                                       the Pasadena, California, and Bridgeport, Connecticut,
                                       facilities. For details of prior audit coverage, see
                                       Appendix B.




                                                    4
Sioux City, Iowa, Processing and                                                                    EN-AR-07-001
 Distribution Facility Consolidation



                                           AUDIT RESULTS
    Data Supports the           The workhour, transportation, and facility cost analyses
    Consolidation               included in the AMP proposal were supported and provided
                                adequate justification for the consolidation.

                                    •      As part of the AMP process, the Postal Service
                                           analyzed the workhours used to process mail at the
                                           Sioux City P&DF and determined that approximately
                                           5,800 workhours could be eliminated if that mail were
                                           processed at the Sioux Falls P&DC and the Sioux City
                                           MPO.

                                    •      To validate this analysis, we selected 22 of the 90
                                           operations listed in the AMP proposal.9 The workhour
                                           savings from these 22 operation numbers amounted to
                                           approximately $374,185 in annual cost savings, or
                                           85 percent of the cost savings for craft employees. We
                                           matched the data in the AMP documents to Postal
                                           Service MODS and EDW data and found that Postal
                                           Service data adequately supported all 22 operations.

                                    •      From Postal Service Headquarters, we obtained an
                                           analysis that used END simulation models to determine
                                           the feasibility of the Sioux City AMP proposal. This
                                           analysis concluded that the AMP was feasible for
                                           consolidating mail processing operations from the Sioux
                                           City P&DF to the Sioux Falls P&DC and the Sioux City
                                           MPO.10

                                Our analyses of productivity, capacity, and customer service
                                provided additional support for the consolidation.

                                       •    The Postal Service was proposing to transfer Sioux City
                                            P&DF mail to a larger plant that ranked higher in
                                            percentage of BPI target productivity achieved. As of
                                            the end of FY 2005, the Sioux Falls P&DC achieved
                                            81.8 percent of BPI target productivity and ranked ninth
                                            out of 50 similar-sized plants. In contrast, the Sioux
                                            City P&DF achieved 67.2 percent of BPI target

9
  These operation numbers included 010, 014, 015, 030, 035, 060, 074, 120, 180, 229, 231, 271, 272, 321, 630, 776,
811, 816, 834, 881, 884, and 918.
10
   We did not audit the END simulation model outputs or verify the analysis provided, nor did we assess how this
specific AMP fits into the END strategy.


                                                        5
Sioux City, Iowa, Processing and                                                                                                                     EN-AR-07-001
 Distribution Facility Consolidation


                                                        productivity and was ranked 39th out of 55 similar-sized
                                                        plants. However, the Sioux City P&DF had a higher
                                                        productivity rate per workhour than the Sioux Falls
                                                        P&DC.11 (See Appendix C for charts comparing each
                                                        plant with similar-sized plants for FY 2005.)

                                   •            The plants had excess capacity for processing mail, and
                                                the consolidation was projected to reduce excess
                                                machine capacity and improve machine utilization. The
                                                two plants had four Advanced Facer Canceller Systems
                                                (AFCS), which face the mail in the proper direction and
                                                cancel postage on outgoing letters. The AMP proposal
                                                indicated that the plants could eliminate one AFCS
                                                through this consolidation, and our analysis confirmed
                                                that the outgoing mail volume could be processed using
                                                fewer AFCS. Chart 2 shows that cancellation capacity
                                                exists to process Sioux City P&DF outgoing mail at the
                                                gaining plant.

                                                             Chart 2: Capacity Analysis for the AFCS

                                                                                               Capacity Analysis for AFCS




                                                        120000000




                                                        100000000




                                                         80000000
                                       Workload (TPH)




                                                                                                                                                         AFCS Capacity
                                                         60000000                                                                                        Current Volume



                                                         40000000




                                                         20000000




                                                                0
                                                                    Pre-AMP Sioux City P&DF   Pre-AMP Sioux Falls P&DC   Post-AMP Sioux Falls P&DC



                               Note: Total pieces handled (TPH) refers to the number of handlings necessary to
                               distribute each piece of mail from the time of receipt to dispatch, including multiple
                               handlings of each piece.




11
   Management said the Sioux City P&DF had a higher productivity per workhour than the Sioux Falls P&DC because
of the different functions of each plant.


                                                                              6
Sioux City, Iowa, Processing and                                                                               EN-AR-07-001
 Distribution Facility Consolidation



                                   •             Moving the Sioux City P&DF mail to the Sioux Falls
                                                 P&DC and the Sioux City MPO should improve overall
                                                 productivity slightly because mail will be processed
                                                 using fewer resources. Chart 3 shows the projected
                                                 increase in combined productivity.

                                                         Chart 3: Analysis of Projected Productivity
                                                                After the AMP Consolidation


                                                                        Productivity Analysis

                                                          4,000.0
                                       TP H/W orkhours



                                                          3,000.0

                                                          2,000.0

                                                          1,000.0

                                                               -
                                                                      Sioux City      Sioux Falls       Combined
                                                                     P&DF/MPO           P&DC

                                                                    Productivity Before   Productivity After

                                Note: The productivity rates are computed using TPH for every mail processing
                                workhour. Productivity rates after consolidation are based on FY 2005 mail volumes
                                and workhour data in the Sioux City AMP.


                                   •   The Postal Service does not expect the AMP proposal to
                                       have a negative effect on customer service.
                                       Management stated that there would be no changes to
                                       local mail collection box pickup times, local retail services
                                       would remain the same, and business customers would
                                       continue to deposit their mail at the Sioux City business
                                       mail entry unit.

                                   •   We did not identify any necessary additional costs to
                                       expand the Sioux Falls P&DC to accommodate the
                                       relocation of equipment from Sioux City P&DF, as the
                                       facility at Sioux Falls is large enough to accommodate
                                       the equipment.




                                                                    7
Sioux City, Iowa, Processing and                                                                      EN-AR-07-001
 Distribution Facility Consolidation



                                     •    An analysis of External First Class Measurement
                                          (EXFC)12 scores for Sioux Falls P&DC and Sioux City
                                          P&DF showed that service performance for mail
                                          transferred to the Sioux Falls P&DC should improve.
                                          Sioux Falls P&DC’s EXFC service scores are higher than
                                          Sioux City P&DF and exceed the national goals for
                                          overnight and 2-day service. Chart 4 compares EXFC
                                          scores for both facilities with national goals.

                                Chart 4: EXFC Comparison for FY 2006 Year to Date


                                                                                          Sioux        Sioux
                                                            National                       City        Falls
                                  FY 2006 EXFC Scores         Goal                        Score        Score
                                   Overnight Composite          95                        95.86        96.86
                                     2-Day Composite            92                        90.46        93.12
                                     3-Day Composite            90                        86.69        89.34
                                Note: Service data as of August 14, 2006

                                39 U.S.C. Chapter 4, § 403 (a) states, “The Postal Service shall
                                plan, develop, promote, and provide adequate and efficient
                                postal services . . . .” Handbook PO-408 also sets guidelines
                                for consolidating mail processing operations.13

                                The consolidation should allow the Sioux Falls P&DC to better
                                use existing capacity, as well as the additional capacity created
                                by relocating processing equipment from Sioux City P&DF. As
                                a result, consolidating mail from the Sioux City P&DF to the
                                Sioux Falls P&DC and the Sioux City MPO should reduce
                                workhours needed to process the mail and improve productivity
                                and service.




12
   EXFC measurement is a system run by an independent contractor that carries out service performance tests on
certain types of First-Class Mail deposited in collection boxes and business mail chutes. It provides national, area,
performance cluster, and city estimates that are compared with service goals.
13
   Handbook PO-408, Area Mail Processing Guidelines, provides a framework for consolidating operations in the mail
processing network. This national policy was issued by Postal Service Headquarters. It states that changes should
support the Postal Service’s strategic objectives, make optimum use of available resources, and establish
management’s accountability for making decisions.


                                                          8
Sioux City, Iowa, Processing and                                                                    EN-AR-07-001
 Distribution Facility Consolidation




 Potential Risks of             The consolidation is projected to improve productivity and
 Consolidation                  service, but we identified some potential risks.

                                       •   The window of time available for processing outgoing
                                           mail is tight and could be further stressed by late-
                                           arriving mail from Sioux City.

                                       •   The 24-hour clock indicators14 for Sioux Falls P&DC
                                           were below some established targets, which increased
                                           the potential risk for affecting service. Examples of key
                                           indicators below established targets include
                                           cancellations by 8:00 p.m., outgoing secondary mail
                                           cleared by midnight, mail assigned to commercial
                                           airlines or Federal Express by 2:30 a.m., and trips on
                                           time.

                                       •   The 95-mile distance between the Sioux City P&DF and
                                           the Sioux Falls P&DC increases the risk that local mail
                                           originating and destinating in Sioux City may not be
                                           processed in a timely manner.

                                       •   The loss of six docks in the transition from the Sioux
                                           City P&DF to the Sioux City MPO could affect
                                           transportation routes during peak times.15

                                       •   Employee attrition and the need to fill vacancies in the
                                           Sioux City commuting area before moving employees to
                                           the Sioux Falls P&DC may result in the loss of skilled
                                           plant employees needed to process the mail transferred
                                           to the Sioux Falls P&DC. This transition may require
                                           increased time for employee training and orientation to
                                           new operations.

                                It is difficult to determine whether management can successfully
                                mitigate these risks in implementing this consolidation.
                                Management should be attentive to these issues as they
                                implement the consolidation and adjust plans as needed to
                                minimize mail processing and delivery delays.



14
   The 24-hour clock indicators show how key operations affect each other and may influence service. Each indicator
is a key link in providing service to downstream facilities and customers. A Postal Service analysis has shown that
some sites failing to meet the indicators can still meet service goals.
15
   The Sioux City P&DF has 19 docks, while the Sioux City MPO has 13 docks.


                                                         9
Sioux City, Iowa, Processing and                                                       EN-AR-07-001
 Distribution Facility Consolidation




 Compliance with               Management generally complied with AMP guidance and
 Area Mail                     maintained supporting documentation. However, we found
 Processing                    discrepancies between the AMP proposal and supporting
 Guidance                      documentation for transportation costs, the number of
                               employees affected, service standard changes, equipment
                               relocation costs, facility costs, and facility closure information.

                               Several factors contributed to the potential inaccuracies in the
                               AMP data shared with stakeholders. First, the AMP policy did
                               not contain detailed guidance for completing some worksheets.
                               For example, we could not validate projected employee
                               relocation expenses because the Postal Service did not have a
                               methodology for completing the worksheet. Conflicting
                               information in the AMP proposal on whether the consolidation
                               would result in closing a facility was due to management
                               indecision about which facility would be closed. Lastly,
                               although the AMP guidelines required reviews of the AMP
                               proposal by various management levels, the reviews did not
                               identify these inconsistencies.

                               To add credibility to the consolidation process, the Postal
                               Service must provide support for AMP data and follow the AMP
                               process. Handbook PO-408 states that a vital aspect of
                               implementing an AMP is timely, clear communication with all
                               parties. The AMP Communications Plan, which was issued in
                               September 2005 and reissued in February 2006, added
                               communication requirements and provided templates to assist
                               notification.

                               The following sections explain the AMP proposal’s inaccuracies
                               or inconsistencies with transportation costs, employees
                               affected, service standards changes, equipment relocation
                               costs, facility costs, employee relocation costs, and facility
                               closure information.

                               Transportation Costs: Analysis of the transportation
                               requirements and associated costs for the 20 highway contract
                               routes (HCR) listed in the proposal showed the following
                               discrepancies:




                                                   10
Sioux City, Iowa, Processing and                                                     EN-AR-07-001
 Distribution Facility Consolidation




                                   •   Two HCRs (510BE and 51037) were affected by the
                                       proposed consolidation, but were not included in the
                                       AMP proposal. According to Sioux Falls personnel, HCR
                                       510BE was not included when the proposal was
                                       submitted because management had not decided to
                                       close the facility in Sioux City. Closing the facility will
                                       eliminate the need for route 510BE, which will save an
                                       additional $57,460. At the same time, HCR 51037 was
                                       not included because it was considered insignificant;
                                       however, including it would increase costs by $10,000.
                                       Including these two HCRs would reduce the estimated
                                       increase in annual transportation costs by $47,460, or
                                       approximately 40 percent of the total additional
                                       transportation costs of $116,548 reported in the AMP
                                       proposal.

                                   •   By using the TCSS to validate the cost data, we
                                       identified some discrepancies with estimated mileage
                                       rates for 13 HCRs. Postal Service officials said that to
                                       allow for increasing fuel costs, they used estimated rates
                                       instead of existing contract rates, and this accounted for
                                       the differences. These cost estimates appear
                                       reasonable; however, the proposal did not document the
                                       methodology used to determine the increase in mileage
                                       rates.

                               Employees Affected: The AMP understated the number of
                               employees affected. When validating the numbers, the OIG
                               identified the following discrepancies:

                                   •   The AMP proposal did not include the elimination of six
                                       custodial positions, understating the impact on craft
                                       personnel.

                                   •   Worksheet 5, Impact on Craft Personnel — Number of
                                       Positions, did not include complete staffing numbers for
                                       all craft positions listed.

                               Contributing to these discrepancies were conflicting information
                               in the AMP proposal on whether the consolidation would result
                               in closing a facility, and inconsistent sources for obtaining data
                               on the employee complement and completing the staffing
                               worksheets.


                                                  11
Sioux City, Iowa, Processing and                                                                       EN-AR-07-001
 Distribution Facility Consolidation



                                 Changes in Service Standards: Most service should remain
                                 the same after the consolidation, and some overnight service
                                 may improve. However, when we validated the impact of the
                                 AMP consolidation on service standards, we found some
                                 discrepancies and inadequate supporting documentation.

                                     •    The AMP documented 31 service upgrades16 for First-
                                          Class Mail between three-digit ZIP Code origin and
                                          destination pairs. The OIG could validate 24 of these
                                          upgrades. Five upgrades were contingent on another
                                          AMP consolidation and should not have been
                                          documented in this proposal. The remaining two
                                          upgrades could not be validated.

                                     •    The AMP proposal did not document any service
                                          standard downgrades. A service analysis completed
                                          using the SSD identified over 6,000 potential service
                                          standard downgrades for all classes of mail. Postal
                                          Service officials stated they would revise the SSD so that
                                          service standards currently in place for Sioux City would
                                          remain after the consolidation, but we could not validate
                                          this action.

                                 Equipment Relocation Costs: Validation of equipment
                                 relocation costs showed that management had underestimated
                                 costs by $47,808.17 Management had not included the
                                 relocation of equipment from the Sioux City P&DF to the Sioux
                                 City MPO as part of the proposal.

                                 Facility Costs: Validation of the projected facility cost savings
                                 showed support for 96 percent of the projected savings. The
                                 AMP proposal included worksheet 11 (Facility Workfloor
                                 Evaluation at the Consolidated Facility), which documented
                                 projected facility savings. The worksheet identified cost savings
                                 of $500,000 based on closing the Sioux City P&DF facility.
                                 These cost savings were due mainly to maintenance and utility
                                 costs. We found minor errors in the supporting data that would




16
   Projected service standard upgrades mean the Postal Service expects to deliver mail to its intended destination
more quickly.
17
   Management indicated that they could reduce projected equipment relocation costs by using Postal Service
employees to move equipment during a weekend.


                                                         12
Sioux City, Iowa, Processing and                                                    EN-AR-07-001
 Distribution Facility Consolidation



                               reduce the projected savings for vacating the Sioux City P&DF
                               by $20,511, down to $479,489. Not having detailed guidance
                               for completing worksheet 11 contributed to the discrepancies
                               noted.

                               Employee Relocation Expenses: The AMP proposal listed no
                               projected employee relocation expenses, although these
                               expenses could be part of the consolidation. Estimating
                               employee relocation expenses is a challenge because many
                               factors affect whether these expenses will eventually be
                               incurred. One factor is filling vacancies in the local commuting
                               area before transferring employees; another is computing
                               distances between employees’ residences and their former and
                               new duty stations. Handbook PO-408 does not address these
                               factors, and the AMP proposal did not include a methodology to
                               support the calculation that no relocation expenses would be
                               incurred. As a result, projected employee relocation expenses
                               could not be validated.

                               Facility Closure Information: Management did not provide clear
                               and accurate information to stakeholders on whether the Sioux
                               City AMP proposal would result in closing a facility. The AMP
                               proposal’s executive summary states that pursuant to the
                               Worker Adjustment and Retraining Notification Act, the Postal
                               Service is not closing a plant or laying off any employees at
                               Sioux City P&DF. Additionally, the summary of the
                               consolidation on the Postal Service website does not mention
                               closing the Sioux City P&DF. However, about half of the cost
                               savings associated with the consolidation and included in the
                               proposal—approximately $500,000—was contingent on closing
                               the Sioux City P&DF.

                               Management stated that when the proposal was prepared, they
                               had not determined which facility in Sioux City might be closed.
                               Thus, they did not include specific information regarding the
                               closure of the Sioux City P&DF in the AMP proposal’s executive
                               summary, the presentation for external stakeholders, or the
                               website.

                               Providing incomplete or inaccurate information to external
                               stakeholders could negatively affect public perception of the
                               AMP process. Keeping stakeholders informed is important to
                               gaining support for the Postal Service’s efforts to consolidate
                               the processing network.


                                                 13
Sioux City, Iowa, Processing and                                                       EN-AR-07-001
 Distribution Facility Consolidation



 Postal Service                During our review, management was revising the Handbook
 Actions                       PO-408. They expect to complete an initial draft in early 2007.
                               Additionally, local management began revising the AMP
                               proposal as we informed them of our concerns during the audit.

 Recommendations               We recommend that the managers, Hawkeye and Dakotas
                               Districts, in conjunction with the Vice President, Western Area:

                                  1. Complete revisions to the Sioux City Area Mail Processing
                                     proposal and executive summary to accurately document
                                     the impacts on employees, equipment, transportation, and
                                     facilities, and submit the revised proposal to Postal
                                     Service Headquarters.

                                  2. Communicate updated information on the Sioux City Area
                                     Mail Processing proposal with stakeholders.

                               We recommend that the Vice President, Network Operations,
                               update the Handbook PO-408, Area Mail Processing Guidelines
                               to:

                                  3. Provide detailed instructions for completing facility
                                     information by requiring clarification of whether a facility
                                     closure is proposed, and identifying data sources for
                                     completing the worksheets.

                                  4. Establish a methodology and instructions for estimating
                                     employee relocation expenses.

 Management’s                  Management agreed with the finding and recommendations in
 Comments                      this report. Management has revised the Sioux City, Iowa AMP
                               feasibility study to include the updated information and the
                               adjustments identified by the OIG. Management will update the
                               Sioux City, Iowa AMP summary brief posted on the Postal
                               Service website to reflect the information in the revised study.
                               Once headquarters approves the study, area management will
                               communicate the decision and impacts to stakeholders in a
                               complete and timely manner.

                               In addition, headquarters is revising Handbook PO-408 to clarify
                               instructions and data sources for completing the Facility
                               Workfloor Evaluation worksheet and to include a methodology
                               for considering potential relocation cost impacts in both AMP
                               proposals and Post-Implementation Reviews.


                                                   14
Sioux City, Iowa, Processing and                                                   EN-AR-07-001
 Distribution Facility Consolidation




 Evaluation of                 Management’s comments are responsive to the audit finding
 Management’s                  and recommendations. Management’s actions, taken or
 Comments                      planned, should correct the issues identified in the report. In
                               their comments, management expressed a concern that the
                               report did not include information provided during the audit
                               regarding possible service standard inaccuracies. While we
                               received this information during the audit, we were unable to
                               validate it against the Service Standards Directory. This
                               directory is used nationwide by the Postal Service to document
                               service standards.




                                                 15
Sioux City, Iowa, Processing and                                   EN-AR-07-001
 Distribution Facility Consolidation



                                       APPENDIX A

                              MAP OF AFFECTED ZIP CODES




                                                    Sioux City- 510, 511
                                                    Sioux Falls- 570, 571
                                                    512 and 513 incoming
                                                    processing changes to
                                                    Sioux Falls from Sioux City




                                            511




                                           16
Sioux City, Iowa, Processing and                                           EN-AR-07-001
 Distribution Facility Consolidation


                                       APPENDIX B

                              PRIOR AUDIT COVERAGE
OIG, Area Mail Processing Guidelines (Report Number NO-AR-06-001, dated
December 21, 2005). The AMP process was fundamentally sound, appeared
credible, and provided a Post-Implementation Review process to assess the
results of mail processing consolidations. However, management of the AMP
process and guidance could be improved. AMPs were not processed or
approved in a timely manner, Post-Implementation Reviews were not always
conducted, and stakeholders’ resistance affected the approval process. The OIG
recommended the Postal Service update AMP guidance, comply with policy, and
address stakeholder resistance. Management agreed with the findings and
recommendations.

OIG, Efficiency Review of the Mansfield, Ohio, Main Post Office (Report Number
NO-AR-05-004, dated December 8, 2004). The Postal Service could increase
operational efficiency at the Mansfield Main Post Office (MPO) by reducing mail
processing workhours by 24,000, which would allow the Mansfield MPO to
achieve 90 percent of targeted goals. This reduction assumes that mail volume
will not significantly change from FY 2003 levels and could produce a cost
avoidance of approximately $7.6 million based on labor savings over 10 years.
The OIG recommended the manager, Northern Ohio District, reduce mail
processing workhours at the Mansfield MPO by 52,000, based on FY 2003
workhour usage. We also recommended consolidating outgoing mail operations
into the Akron P&DC, as the Eastern Area AMP study recommended.
Management agreed, and the actions planned were responsive to the issues
identified.

OIG, Efficiency Review of the Canton, Ohio, Processing and Distribution
Facility (Report Number NO-AR-05-013, dated September 22, 2005). The Postal
Service could increase operational efficiency at the Canton P&DF by reducing
mail processing workhours by 202,000. This reduction, which assumes that mail
volume will not significantly change from FY 2004 levels, could produce a cost
avoidance of approximately $64 million based on labor savings over 10 years.
We recommended the manager, Northern Ohio District, reduce mail processing
operations at the Canton P&DF by 93,000 workhours based on FY 2004
workhour usage. We also recommended consolidating outgoing mail operations
into the Akron P&DC, thereby saving an additional 109,000 workhours.
Management agreed, and the actions planned were responsive to the issues
identified.

OIG, Pasadena, California, Processing and Distribution Center Consolidation
(Report Number EN-AR-06-001, dated September 26, 2006). The workhour cost
analysis included in the AMP proposal was supported, and additional OIG
analyses provided confirming evidence for the consolidation. However, in the

                                           17
Sioux City, Iowa, Processing and                                           EN-AR-07-001
 Distribution Facility Consolidation


development, approval, and implementation of the Pasadena AMP proposal,
management did not always comply with the processes outlined in policy, and
some data in the AMP proposal were inaccurate, incomplete, or unsupported.
The OIG recommended that management revise the Pasadena AMP proposal to
document all service standard changes and transportation costs. We also
recommended that management establish central files for approved AMP
proposals and supporting documentation to facilitate Post-Implementation
Reviews. Finally, we recommended that management update AMP policy.
Management generally agreed with our recommendations and has initiatives in
progress, completed, or planned addressing the issues in this report.

OIG, Bridgeport, Connecticut, Processing and Distribution Facility Outgoing Mail
Consolidation (Report Number NO-AR-06-010, dated September 30, 2006). The
Postal Service was justified in moving outgoing mail processing operations from
the Bridgeport P&DF to the Stamford, Connecticut, P&DC. The consolidation
should have minimal impact on employees, use excess mail processing capacity,
reduce labor costs, increase processing efficiency, and potentially improve
delivery service. Transportation costs may increase slightly, but the
consolidation will allow expansion of Bridgeport P&DF carrier operations. The
Postal Service implemented this consolidation during our audit. Consequently,
we did not make recommendations pertaining to the consolidation itself, since
our assessment supported management’s actions. However, we identified some
weaknesses in management controls over the processing and approval of the
AMP proposal, and we recommended that Postal Service maintain supporting
documentation and use current data for future AMP proposals. Management
agreed with our recommendations and agreed to maintain supporting
documentation and use current data.




                                       18
                                                                                                                                                                                                                                  Percentage Performance Achievement




                                                                                                                                                                                             0 .0 0 %
                                                                                                                                                                                                        1 0 .0 0 %
                                                                                                                                                                                                                     2 0 .0 0 %
                                                                                                                                                                                                                                     3 0 .0 0 %
                                                                                                                                                                                                                                                  4 0 .0 0 %
                                                                                                                                                                                                                                                               5 0 .0 0 %
                                                                                                                                                                                                                                                                            6 0 .0 0 %
                                                                                                                                                                                                                                                                                         7 0 .0 0 %
                                                                                                                                                                                                                                                                                                      8 0 .0 0 %
                                                                                                                                                                                                                                                                                                                   9 0 .0 0 %
                                                                                                                                                                                                                                                                                                                                1 0 0 .0 0 %
                                                                                                                                                                                MOJAVE PO
                                                                                                                                                                          PLATTSBURGH PO
                                                                                                                                                                           WINCHESTER PO
                                                                                                                                                                         GRAND ISLAND PDF
                                                                                                                                                                           CUMBERLAND PO
                                                                                                                                                                                                                                                                                                                                                                                                            Sioux City, Iowa, Processing and




                                                                                                                                                                             NORFOLK PDF
                                                                                                                                                                                                                                                                                                                                                                                                             Distribution Facility Consolidation




                                                                                                                                                                            FORT SMITH PO
                                                                                                                                                                           GREAT FALLS PO
                                                                                                                                                                             WHEELING PO
                                                                                                                                                                              JACKSON PO
                                                                                                                                                                              ASHLAND PDF
                                                                                                                                                                              MISSOULA PO
                                                                                                                                                                          GRAND FORKS PO
                                                                                                                                                                          BLOOMINGTON PO
                                                                                                                                                                              GAYLORD PO
                                                                                                                                                                                 BUTTE PO
                                                                                                                                                                            ZANESVILLE PO
                                                                                                                                                                                PASCO PDF
                                                                                                                                                                                YAKIMA PO
                                                                                                                                                                       IMT-KINGSFORD FSTA
                                                                                                                                                                          JOHNSON CITY PO
                                                                                                                                                                           WATERTOWN PO
                                                                                                                                                                               POCATELLO
                                                                                                                                                                             RAPID CITY PO




19
                                                                                                                                                                       CENTRAL DAKOTA PDF
                                                                                                                                                                                 MINOT PO
                                                                                                                                                                              MEDFORD PO
                                                                                                                                                                             BISMARCK PDF
                                                                                                                                                                                                                                                                                                                                                                                               APPENDIX C




                                                                                                                                                                       BOWLING GREEN PDF
                                                                                                                                                                                  LIMA PDF
                                                                                                                                                                        GRAND JUNCTION PO
                                                                                                                                                                          WICHITA FALLS PO
                                                                                                                                                                            WENATCHEE PO
                                                                                                                                                                          BRIDGEPORT PDF
                                                                                                                                                                             LA CROSSE PO
                                                                                                                                                                                QUINCY PO
                                                                                                                                                                            TEXARKANA PO
                                                                                                                                                                              LONDON PDF
                                                                                                                                                                             SIOUX CITY PO
                                                                                                                                                                                                                                                                                                                                                                                                                               EN-AR-07-001




                                                                                                                                                                            CHEYENNE PDC
                                                                                                                                                                             PADUCAH PDF
                                                                                                                                                                                                                                                                                                                                                   PLANT PERFORMANCE FOR FISCAL YEAR 2005




                                                                                                                                                                         WILLIAMSPORT PDF
                                                                                                                                                                          PANAMA CITY PDF
                                                                                                                                                                              ALTOONA PO
                                                                                                                                                                           GLENS FALLS PO
                                                                                                                                                                                                                                                                                                                                               PERCENTAGE ACHIEVEMENT FOR GROUP SEVEN PLANTS




                                                                                                                                                                           WATERBURY PDF
                                                                                                                                                                             BLUEFIELD PO
                                                                                                                                                                          HUNTINGTON PDF
     Sioux City P&DF ranked 39th out of 55 Group Seven plants in performance achievement to BPI target. Source: Enterprise Data Warehouse




                                                                                                                                                                                CASPER PO
                                                                                                                                                                               BRISTOL PO
                                                                                                                                                                          GREENSBURG PO
                                                                                                                                                                           HUTCHINSON PO
                                                                                                                                                                          STEUBENVILLE PO
                                                                                                                                                                            JAMESTOWN PO
                                                                                                                                                                            KEYSTONE PDF
     Note: Mail processing facilities are divided into seven groups according to mail volume, with Group One plants the largest and Group Seven plants the smallest.
                                                                                                                                                                                                                                       Percentage Performance Achievement




                                                                                                                                                                                                  0 .0 0 %
                                                                                                                                                                                                             1 0 .0 0 %
                                                                                                                                                                                                                          2 0 .0 0 %
                                                                                                                                                                                                                                          3 0 .0 0 %
                                                                                                                                                                                                                                                       4 0 .0 0 %
                                                                                                                                                                                                                                                                    5 0 .0 0 %
                                                                                                                                                                                                                                                                                 6 0 .0 0 %
                                                                                                                                                                                                                                                                                              7 0 .0 0 %
                                                                                                                                                                                                                                                                                                           8 0 .0 0 %
                                                                                                                                                                                                                                                                                                                        9 0 .0 0 %
                                                                                                                                                                                                                                                                                                                                     1 0 0 .0 0 %
                                                                                                                                                                                    WAUSAU PDF

                                                                                                                                                                              STATEN ISLAND PDF

                                                                                                                                                                                 SAINT CLOUD PO

                                                                                                                                                                                QUAD CITIES PDF

                                                                                                                                                                                    EL PASO PDC

                                                                                                                                                                                CHARLESTON PDF

                                                                                                                                                                                   AUGUSTA PDF
                                                                                                                                                                                                                                                                                                                                                                                                                            Sioux City, Iowa, Processing and




                                                                                                                                                                                    BILLINGS PO
                                                                                                                                                                                                                                                                                                                                                                                                                             Distribution Facility Consolidation




                                                                                                                                                                                 SIOUX FALLS PO

                                                                                                                                                                                    LINCOLN PDF

                                                                                                                                                                                  FT WAYNE PDC

                                                                                                                                                                                    OXNARD PDF

                                                                                                                                                                               YOUNGSTOWN PDF

                                                                                                                                                                                CEDAR RAPIDS PO

                                                                                                                                                                            CHARLOTTESVILLE PDF

                                                                                                                                                                             SANTA BARBARA PDC

                                                                                                                                                                                   AMARILLO PDF

                                                                                                                                                                                  ASHEVILLE PDF

                                                                                                                                                                                     SALEM PDF

                                                                                                                                                                                     PEORIA PDF

                                                                                                                                                                                 ROCKFORD PDC

                                                                                                                                                                               COLUMBIA MO PDF




     performance achievement to BPI target. Source: Enterprise Data Warehouse.
                                                                                                                                                                                 CHAMPAIGN PDF

                                                                                                                                                                                 PENSACOLA PDC




20
                                                                                                                                                                                  LAKELAND PDC

                                                                                                                                                                                    EUGENE PDF

                                                                                                                                                                                 FREDERICK PDF

                                                                                                                                                                                 GREEN BAY PDC

                                                                                                                                                                                     MOBILE PDC

                                                                                                                                                                                      FLINT PDC
                                                                                                                                                                                                                                                                                                                                                                                                   APPENDIX C - continued




                                                                                                                                                                                  SAVANNAH PDF

                                                                                                                                                                                TALLAHASSE PDF

                                                                                                                                                                                    CANTON PDF

                                                                                                                                                                                GAINESVILLE PDF

                                                                                                                                                                               PORTSMOUTH PDF
                                                                                                                                                                                                                                                                                                                                                       PLANT PERFORMANCE FOR FISCAL YEAR 2005




                                                                                                                                                                                      FARGO PO
                                                                                                                                                                                                                                                                                                                                                                                                                                               EN-AR-07-001




                                                                                                                                                                                   READING PDF

                                                                                                                                                                                 HUNTSVILLE PDF
                                                                                                                                                                                                                                                                                                                                                    PERCENTAGE ACHIEVEMENT FOR GROUP FIVE PLANTS




                                                                                                                                                                               DAYTONA BCH PDF

                                                                                                                                                                                   SAGINAW PDC

                                                                                                                                                                               ROCKY MOUNT PDF

                                                                                                                                                                                       ATH-GMF

                                                                                                                                                                                 EAST TEXAS PDC

                                                                                                                                                                                      WACO PDF

                                                                                                                                                                                      KCKS PDC

                                                                                                                                                                                  SCRANTON PDF

                                                                                                                                                                                ANCHORAGE PDC

                                                                                                                                                                                CHARLESTON PDC

                                                                                                                                                                                SPRINGFIELD PDC

                                                                                                                                                                               WHITE RIVER JUNC
     Note: Sioux Falls P&DC is classified as a Group Five plant, the fifth largest plant category based on mail volume. It ranks ninth out of the 50 Group Five plants in
Sioux City, Iowa, Processing and                   EN-AR-07-001
 Distribution Facility Consolidation


               APPENDIX D. MANAGEMENT’S COMMENTS




                                       21
Sioux City, Iowa, Processing and            EN-AR-07-001
 Distribution Facility Consolidation




                                       22
Sioux City, Iowa, Processing and            EN-AR-07-001
 Distribution Facility Consolidation




                                       23
Sioux City, Iowa, Processing and            EN-AR-07-001
 Distribution Facility Consolidation




                                       24
